TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Increased Management Oversight of the
                  Sensitive but Unclassified Waste Disposal
                  Process Is Needed to Prevent Inadvertent
                     Disclosure of Personally Identifiable
                                 Information



                                          May 8, 2009

                            Reference Number: 2009-30-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3d = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     May 8, 2009


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Increased Management Oversight of the Sensitive
                                 but Unclassified Waste Disposal Process Is Needed to Prevent
                                 Inadvertent Disclosure of Personally Identifiable Information
                                 (Audit # 200830008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has established effective controls to ensure that security measures related to the disposal of
 tax and other sensitive but unclassified (SBU) information are adequate to prevent disclosure of
 personally identifiable information (PII). 1 This audit was conducted as part of our Fiscal Year
 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Identity theft occurs when someone uses PII such as an individual’s name, Social Security
 Number, credit card numbers, or other account information, to commit fraud and other crimes.
 In November 2007, the Federal Trade Commission reported that, for the eighth year in a row,
 identity theft was the number one consumer complaint nationwide and that each year it affects
 more than 10 million Americans. Consumers have lost more than $45 billion to identity thieves.
 Taxpayers need to be assured that the IRS is taking every precaution to protect their private
 information from inadvertent disclosure. This includes, but is not limited to, evaluating the
 integrity and security of taxpayer data and sensitive information during the collection, disposal,
 and destruction of SBU waste/PII generated in paper form by the daily business of tax
 administration.




 1
     Tax returns and return information are to be considered SBU information. PII is a specific type of SBU.
                     Increased Management Oversight of the Sensitive but
                   Unclassified Waste Disposal Process Is Needed to Prevent
                  Inadvertent Disclosure of Personally Identifiable Information



Synopsis
More than 130 million taxpayers entrust the IRS with sensitive financial and personal data, much
of it on paper documents requiring SBU waste disposal. The IRS has provided guidance to
address the security of sensitive taxpayer information but greater oversight is needed with
respect to the disposal of SBU paper waste.
Specific responsibilities associated with the SBU waste disposal program need to be clearly
defined and delineated. Without clearly defined responsibilities and ongoing monitoring to
ensure that controls are functioning as intended, the IRS cannot ensure that sensitive information
is given the protection needed to prevent unauthorized disclosure or dissemination.
In addition, the IRS needs greater standardization over the development and administration of
contracts for the disposal of SBU waste. Contracts for disposing of SBU waste and PII did not
contain consistent specifications for key services. Further, oversight to ensure vendors complied
with contract specifications or other IRS requirements was not adequate.
We also found that policies related to protection and disposal of paper documents containing PII
need to be more widely communicated and adhered to by employees and contractors. At every
location we visited, we found documents containing PII or other SBU information in regular
waste containers and/or dumpsters. If security policies are not adequately communicated and
adhered to, sensitive taxpayer and employee data are at an increased risk of disclosure or other
improper usage.

Recommendations
We recommended that the Chief, Agency-Wide Shared Services, work with the Deputy
Commissioner for Operations Support, as necessary, to establish authority and responsibility at
the national level for the disposal and destruction of SBU waste/PII and establish policies and
procedures to address internal control weaknesses. The Chief, Agency-Wide Shared Services,
should ensure that all SBU waste contracts (either in place or to be awarded) include the Federal
security requirements for SBU waste/PII disposal and destruction. Additionally, improvements
to oversight and management of SBU waste disposal contracts should include standardization of
critical elements and the creation of a national database of all IRS facilities, the contracts
covering SBU waste disposal, and the contractors that serve them. Further, the Chief,
Agency-Wide Shared Services, should provide complete, updated, and accurate guidance and
education to all IRS management, employees, and contractors involved in any aspect of the
collection, disposal, or destruction of SBU waste/PII.




                                                                                                 2
                    Increased Management Oversight of the Sensitive but
                  Unclassified Waste Disposal Process Is Needed to Prevent
                 Inadvertent Disclosure of Personally Identifiable Information



Response
IRS management agreed with all of our recommendations. The IRS has taken actions to improve
the SBU Waste Disposal Program, including enhanced oversight and management of SBU/PII
waste disposal contracts. Management has developed Standard Operating Procedures to allow
for consistent oversight of the National Document Destruction Contract and the handling of
SBU/PII information. Management has also created a Performance Work Statement and
Performance Requirements Summary to provide consistent national policies regarding critical
elements such as the maintenance, storage, and updating of background investigations and
disclosure safeguards and certificates of destruction. Responsibilities for monitoring vendor
adherence to contract requirements have been clearly defined and assigned. In addition, the IRS
has revised the Internal Revenue Manual on Information Protection, to include SBU and PII
standards and terminology. Finally, Agency-Wide Shared Services will be partnering with the
Communications and Liaison function and the Privacy Office to develop a communications plan
to ensure continued awareness around policies and procedures for the destruction of PII and SBU
information for both employees and contractors. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Margaret E.
Begg, Assistant Inspector General for Audit (Compliance and Enforcement Operations), at (202)
622-8510.




                                                                                              3
                           Increased Management Oversight of the Sensitive but
                         Unclassified Waste Disposal Process Is Needed to Prevent
                        Inadvertent Disclosure of Personally Identifiable Information




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Provided Guidance to Address
          the Security of Sensitive Taxpayer Information ..........................................Page 3
          Specific Responsibilities Associated With the Sensitive but Unclassified
          Waste Disposal Program Need to Be Clearly Defined and Delineated ........Page 4
                    Recommendations 1 and 2: ..............................................Page 7

          Increased Standardization Over the Development and Administration of
          Contracts for Disposal of Sensitive but Unclassified Waste May
          Improve Security...........................................................................................Page 8
                    Recommendation 3:........................................................Page 10

                    Recommendation 4:........................................................Page 11

          Policies Related to Protection and Disposal of Paper Documents
          Containing Personally Identifiable Information Need to Be More
          Widely Communicated and Adhered to by Employees and Contractors .....Page 12
                    Recommendation 5:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
          Increased Management Oversight of the Sensitive but
        Unclassified Waste Disposal Process Is Needed to Prevent
       Inadvertent Disclosure of Personally Identifiable Information




                     Abbreviations

COTR           Contracting Officer’s Technical Representative
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
PII            Personally Identifiable Information
SBU            Sensitive But Unclassified
                        Increased Management Oversight of the Sensitive but
                      Unclassified Waste Disposal Process Is Needed to Prevent
                     Inadvertent Disclosure of Personally Identifiable Information




                                            Background

In November 2007, the Federal Trade Commission reported that, for the eighth year in a row,
identity theft was the number one consumer complaint nationwide and that each year it affects
more than 10 million Americans. Identity theft occurs when someone uses Personally
Identifiable Information (PII) such as an individual’s name, Social Security Number, credit card
numbers, or other account information, to commit fraud and other crimes. The same report
stated that consumers have lost more than $45 billion to identity thieves, and it takes an average
of 328 hours per person to repair the damage. The Federal Trade Commission has stated that
paper documents containing PII continue to be one of the primary ways identity thieves get
private information.
Legislation such as the Privacy Act of 1974, 1 the E-Government Act of 2002, 2 and the Federal
Information Security Management Act of 2002 3 have all given Federal agencies guidelines and
responsibilities for protecting personal information, including ensuring its security. The Internal
Revenue Service’s (IRS) Office of Privacy, Information Protection and Data Security defines PII
as any combination of information that can be used to uniquely identify, contact, or locate a
person and could subsequently be used for identity theft. As the IRS has moved forward in the
use of modern technology such as laptops, flash drives, writable media, and Blackberry devices,
it has rightly focused much of its security efforts and policies on electronic media. However, the
IRS continues to work with and dispose of large volumes of paper documents containing
sensitive but unclassified (SBU) taxpayer data that require the same level of protection. 4
More than 130 million taxpayers entrust the IRS with sensitive financial and personal data, much
of it on paper documents requiring protection from disclosure during disposal. Taxpayers need
to be assured that the IRS is taking every precaution to protect their private information from
inadvertent disclosure. This includes, but is not limited to, evaluating the integrity and security
of taxpayer data and sensitive information during the collection, disposal, and destruction of
SBU waste/PII generated in paper form by the daily business of tax administration.
This review was performed at IRS offices in Phoenix, Tempe, and Tucson, Arizona;
New Carrollton, Maryland; Holtsville, Garden City, and Westbury, New York; and Ogden, Utah,
and included questionnaires to 14 Territory Managers 5 across the country during the period
September 2007 through May 2008. We conducted this performance audit in accordance with

1
  5 U.S.C. § 552a (2000).
2
  Pub. L. No. 107-347 Title III, Section 301 (2002).
3
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
4
  Tax returns and return information are to be considered SBU information. PII is a specific type of SBU.
5
  Territory Managers are responsible for Real Estate and Facilities Management and Building Management
programs servicing customers in geographically dispersed posts of duty in their assigned territories.

                                                                                                            Page 1
                     Increased Management Oversight of the Sensitive but
                   Unclassified Waste Disposal Process Is Needed to Prevent
                  Inadvertent Disclosure of Personally Identifiable Information


generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                       Increased Management Oversight of the Sensitive but
                     Unclassified Waste Disposal Process Is Needed to Prevent
                    Inadvertent Disclosure of Personally Identifiable Information




                                    Results of Review

The Internal Revenue Service Has Provided Guidance to Address the
Security of Sensitive Taxpayer Information
The IRS has initiated a number of actions to protect sensitive taxpayer information. In
July 2007, the Office of Privacy, Information Protection and Data Security was established. Its
mission is to protect PII from unauthorized use, access, disclosure, or sharing and to protect
information systems used for tax information. Within the Office of Privacy, Information
Protection and Data Security, the Office of Privacy is responsible for ensuring that IRS policies
and programs incorporate both taxpayer and employee privacy concerns and that the public is
aware of IRS privacy business practices and principles. As one of its first accomplishments, the
Office of Privacy developed the Privacy Impact Assessment form to evaluate program
compliance with IRS privacy policies. This form is now considered a best practice by the U.S.
Government’s Chief Information Officers’ Council. Through the Office of Privacy, Information
Protection and Data Security, the IRS has collaborated with other Federal agencies to co-sponsor
OnGuardOnline.gov, a newly established web site that gives individuals practical tips on how to
avoid Internet fraud, secure their computers, and protect their personal information.
The Office of Identity Theft Incident Management has also been established to address the
increase in identity theft, data loss trends, and the need for an IRS authority regarding these
issues. The Office of Identity Theft Incident Management is responsible for administering the
Incident Management program, the IRS’ PII incident notification process for both taxpayers and
employees potentially impacted by IRS data loss incidents. Included in this process is a risk
assessment of all data loss incidents and possible notification of taxpayers.
The Deputy Commissioner for Operations Support recently released emails to all IRS managers
and employees communicating the importance of protecting electronic and paper documents
containing sensitive information and informing them about the launch of a program called
Operation R.E.D. 6 The IRS has also taken steps to communicate its expectations to both
management and employees in regards to the responsibilities and accountability for protecting
taxpayer information entrusted to them. The publication Internal Revenue Service Guide to
Penalty Determinations (Document 11500 [8-2007]) provides a list of common infractions
(including disclosure of taxpayer information due to carelessness or negligence) and a suggested
range of penalties for those infractions.

6
 Operation R.E.D. (Read, Encrypt, and Decide) was a 60-day IRS-wide event to refresh employee awareness of
existing policies and procedures about safeguarding and protecting sensitive information.


                                                                                                      Page 3
                         Increased Management Oversight of the Sensitive but
                       Unclassified Waste Disposal Process Is Needed to Prevent
                      Inadvertent Disclosure of Personally Identifiable Information


Commissioner of Internal Revenue Service, Douglas Shulman, in his executive message to all
employees, stated:
         “As IRS employees, we are entrusted with handling very sensitive taxpayer information
         every day. In fact, handling sensitive information is so common to us that there is a
         danger of becoming complacent or careless. This is simply not acceptable. I cannot
         stress strongly enough the importance of our duty to America’s taxpayers to protect their
         information and maintain their trust. Our voluntary tax system depends on it.”
While the above measures may assist the IRS in its efforts to protect sensitive taxpayer
information, greater oversight is needed in some areas.

Specific Responsibilities Associated With the Sensitive but
Unclassified Waste Disposal Program Need to Be Clearly Defined and
Delineated
During our review, we identified several areas where responsibility and accountability related to
the protection or disposal of SBU waste were not clearly defined, and monitoring of controls
designed to protect PII from disclosure did not take place.

No one individual or position was clearly given responsibility for the oversight of
the handling of SBU waste and PII at the sites we visited.
During onsite visits to 15 IRS locations, and in questionnaires provided to 14 Territory
Managers, we attempted to determine who was responsible for the oversight and monitoring of
the collection and disposal of SBU waste. Answers varied from site to site and, in some
instances, we received contradictory answers from Territory Managers and onsite personnel.
Among those identified as having overall responsibility were employees from the Real Estate
and Facilities Management function, employees from the Physical Security function, Territory
Managers, and Contracting Officer’s Technical Representatives (COTR). 7 The General Services
Administration as well as the property owner for occupied commercial space were also
mentioned as being responsible.
In addition, as of May 2008, we were unable to locate anything in the Internal Revenue Manual
(IRM) or other policy documents assigning responsibility to perform and document site visits to
the shred or burn facilities of businesses contracted to destroy SBU waste. The 13 Territory
Managers responding to our questionnaire indicated that no official inspection of the shred/burn
contractor’s facilities in their territories had been performed within the last 18 months. We

7
 The COTR is a person designated by the Contracting Officer to perform certain administrative tasks related to a
specific contract. The primary role of the COTR is to monitor the contractor’s performance, ensure that the
contractor delivers what is called for in the contract, and serve as the technical liaison between the contractor and the
Contracting Officer.

                                                                                                                Page 4
                        Increased Management Oversight of the Sensitive but
                      Unclassified Waste Disposal Process Is Needed to Prevent
                     Inadvertent Disclosure of Personally Identifiable Information


found evidence of only 2 instances where IRS personnel conducted visitations to shred/burn
facilities in the past 2 fiscal years. Not all Territory Managers were even able to identify the
contractor who provided their shred/burn services or where they were located. None of the four
contractor sites we visited had ever received a request from the IRS to inspect their facility or
onsite records. In fact, one facility had changed its actual physical location during the term of
the contract without an IRS site inspection. The change of location (which could invalidate
much of the information used to make the original assessment regarding the security of the SBU
data in the facility’s care) should have resulted in a recertification. 8
A good internal control environment requires that the structure clearly define key areas of
authority and responsibility and establish appropriate lines of reporting. IRS management had
not addressed this issue. Without clearly defined responsibilities and ongoing monitoring, the
IRS cannot ensure that sensitive information is given the adequate protection needed to prevent
unauthorized disclosure or dissemination.

Responsibility for the completion and documentation of background
investigations for contractors handling SBU waste varied at different IRS
facilities.
During our onsite visits and in responses to our questionnaires, we again received inconsistent
and contradictory answers regarding responsibility for the initiation and maintenance of
background investigations and associated files.
Among those named as responsible for background investigations were the National Background
Investigation Center, General Services Administration, building owners (in commercially owned
buildings), the IRS’ procurement function, COTRs, and individual contractors. We received
similar answers with regard to the maintenance of background investigation files. One COTR
stated that he performed work related to obtaining background investigations but maintained no
paper files. At other facilities, we were told that contractors maintained the files. We found no
documentation to show that any review of the background investigation files was performed by
IRS officials. One contracted shred facility informed us that the IRS had not asked about or
checked on the background investigations of their employees in 6 or 7 years, and another stated
that the IRS had never done such a check.
Without complete and proper background investigations for contracted employees, the IRS
cannot ensure the integrity of these individuals, which puts sensitive taxpayer information at
increased risk of theft or unauthorized disclosure or dissemination.

8
  The IRM states that a business unit requesting services from an outside contractor, requiring the disclosure of
sensitive information, should coordinate with appropriate Physical Security personnel to determine whether all
physical security requirements necessary to protect the sensitive data are addressed. An existing contractor’s ability
to adequately protect IRS data from unauthorized use or disclosure must be recertified whenever the security
measures employed by the contractor become a matter of concern.

                                                                                                              Page 5
                        Increased Management Oversight of the Sensitive but
                      Unclassified Waste Disposal Process Is Needed to Prevent
                     Inadvertent Disclosure of Personally Identifiable Information



 Responsibilities had not been defined or delineated to control which IRS sites
 had shredders available or which individuals at IRS sites had keys to SBU waste
 containers.
 We were unable to identify an individual or individuals responsible for maintaining an inventory
 list or other official records regarding which of the approximately 746 IRS sites nationwide had
 shredders available to dispose of SBU waste. Shredding of SBU waste and PH is a key control
 to ensure that sensitive information is not disclosed. Management should be aware of the
 availability of shredders and associated costs when sites have responsibility for disposing of their
 own SBU waste.
 In addition, controls over keys to SBU waste containers were inadequate at the sites we visited.
 At one campus,9 employees from the Facilities Management and Physical Security functions
 distributed keys (to SBU waste containers) to all managers "who wanted them," without
 determining whether an authorized need existed, and without requiring the managers/employees
 to sign appropriate documents to hold them accountable for the keys. At one Federal Building,
 an employee, who had been but was no Ion er res onsible for the su ervision of the onsite
 shredding process,
L...-          ..........~__<I Also, at one commercially owned building in which the IRS rents space, a

                             iven ke s to the SBU waste containers
                                                       3(4)
' - -_ _- o JAt each site visited, we found that keys to SBU waste container locks were identical,
 not only within the IRS facility, but also identical to keys for the locks on containers for other
 customers of the shred/burn contractors.
 The IRM IO states that access to a locked area, room, or container can only be controlled if the key
 is controlled. As soon as the key is lost or obtained by an unauthorized person, the security
 provided by that particular lock is lost. The IRM also states that keys will be issued only to
 persons having a need to have access to an area, room, or container, and that the number of keys
 will be kept to a minimum. Also, keys issued to individuals are to be kept with the individuals
 and not stored in desk drawers or other unsecured places or shared with other employees.
 Without clearly defined responsibilities and ongoing monitoring to ensure that controls over the
 issuance and maintenance of keys to SBU waste containers are functioning as intended, the IRS
 cannot ensure that sensitive information is given the protection needed to prevent unauthorized
 disclosure or dissemination.


 9 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
 forward data to the Computing Centers for analysis and posting to taxpayer accounts.
 10 IRM 1.16.14.9.4 - Control and Safeguarding of Keys and Combinations.




                                                                                                           Page 6
                     Increased Management Oversight of the Sensitive but
                   Unclassified Waste Disposal Process Is Needed to Prevent
                  Inadvertent Disclosure of Personally Identifiable Information



Recommendations
Recommendation 1: The Chief, Agency-Wide Shared Services, should work with the
Deputy Commissioner for Operations Support as necessary to establish authority and
responsibility at the national level for the disposal and destruction of SBU waste and PII, and
establish policies and procedures relevant to the following:
   •   Consistent authority and responsibility at all field sites for the oversight of the handling
       of SBU waste and PII.
   •   Consistent national policies regarding the maintenance, storage, and updating of
       background investigations.
   •   Issuance and controls over keys to SBU waste containers and storage areas.
   •   Shredders and other SBU waste assets.
Management’s Response: IRS management agreed with this recommendation. The IRS
has taken actions to improve the SBU Waste Disposal Program including enhanced oversight
and management of SBU/PII waste disposal contracts. They have developed Standard Operating
Procedures to allow for consistent oversight of the National Document Destruction Contract and
the handling of SBU/PII information, and created a Performance Work Statement and
Performance Requirements Summary to provide consistent national policies regarding the
maintenance, storage, and updating of background investigations. Controls over keys to SBU
information containers and storage areas will be monitored by the development of a log, and
distribution of keys will be kept at a strict minimum. Management will ensure that shredders
purchased by the IRS are in conformance with the IRS requirements for shred size and
specifications.
Recommendation 2: The Chief, Agency-Wide Shared Services, should also work with the
Deputy Commissioner for Operations Support, as necessary, to revise the IRM with regards to:
1) mandating site visits to shred/burn facilities; and 2) establishing minimum standards for the
performance of site visits, the documentation required, and maintenance of these files.
Management’s Response: IRS management agreed with this recommendation.
Management will utilize the Performance Work Statement to achieve establishment of minimum
standards for the performance of site visits, the required documentation, and files maintenance,
along with mandatory visits to the shred/burn facilities.
Office of Audit Comment: Although the IRS’ corrective action is different than the specific
action recommended, we agree with management’s use of the Performance Work Statement to
address this issue.




                                                                                              Page 7
                         Increased Management Oversight of the Sensitive but
                       Unclassified Waste Disposal Process Is Needed to Prevent
                      Inadvertent Disclosure of Personally Identifiable Information


Increased Standardization Over the Development and Administration
of Contracts for Disposal of Sensitive but Unclassified Waste May
Improve Security
Contracts for disposing of SBU waste and PII did not contain consistent specifications for
essential services. Further, oversight to ensure vendors complied with contract specifications or
other IRS requirements was not adequate.

Contract development
The IRS receives shredding services from vendors awarded contracts through a competitive
bidding process. In some situations, these businesses subcontract various additional services
such as pickup or transportation of SBU waste material from IRS locations to contractor
facilities. At the time of our review, there were numerous 11 shred contracts with different
requirements covering more than 700 IRS locations. The IRM and Tax Information Security
Guidelines for Federal, State and Local Agencies and Entities, Safeguards for Protecting
Federal Tax Returns and Return Information (Publication 1075) contain minimum requirements
for external agencies regarding PII and SBU waste including storage, physical security, restricted
access, and disposal. IRS contractors should be made aware of and abide by these standards and
the IRS should provide for adequate oversight to ensure contractors are meeting these
requirements. However, we reviewed eight different contracts for onsite and offsite shredding
services and found that the contracts lacked consistency in or were missing requirements for
several key items, including:
     •   Six contracts did not include a clause providing for unannounced site visits by IRS
         personnel. This issue was also corroborated by 5 of the 12 Territory Managers’
         responses to our questionnaires.
     •   Six contracts did not address the minimum requirements for background investigations of
         any subcontract employees.
     •   Three 12 contracts were missing the statements required in the IRM prohibiting the
         contractors from disclosing any sensitive data which they might have observed.

11
   We were unable to obtain copies of all contracts for SBU waste disposal and destruction that are currently in
effect without - according to the IRS - great effort. According to IRS management, copies of contracts are not
obtainable from a single database by any other identifiers other than a contract number. They are not aware of any
computer information system that manages the contracts for the IRS nationwide and stated that there is no way
Procurement would know how many shred/burn contracts there are unless we could provide the contract numbers.
The copies of contracts we did receive were obtained from the various Territory Managers or their COTRs.
12
   One of the three contracts with no nondisclosure statement contained some wording related to nondisclosure
including a space for the contractor to sign, but the wording was not the same as the other contracts and that section
of the contract had not been signed by the contractor.

                                                                                                               Page 8
                        Increased Management Oversight of the Sensitive but
                      Unclassified Waste Disposal Process Is Needed to Prevent
                     Inadvertent Disclosure of Personally Identifiable Information


     •   Four contracts contained no requirements for contractors to provide Certificates of
         Destruction. 13 The other four contracts contained verbiage which varied from
         “Certificates to be provided on request” to “Certificates to be provided monthly.”
     •   One contract contained a shred size specification different than the specification required
         by the IRM.

Contract oversight
IRS oversight was not adequate to ensure that vendors met contract specifications or other IRS
requirements. For example:
     •   Shred locations that we visited were all National Association for Information Destruction,
         Inc. 14 certified and had conducted their own background investigations on their
         employees. However, these investigations would not have met IRS requirements or
         standards due to their limited scope.
     •   We identified situations where the actual removal and destruction process for SBU waste
         did not correspond to the elements within the contract. At two of the IRS locations where
         shredding services were performed onsite, the actual shredding process was completed
         outside of the physical structure. This was not in accordance with the contract and
         greatly increased the risk that papers could fly away unnoticed during the shredding
         process.
     •   In some instances, Certificates of Destruction were provided to the IRS on different time
         intervals and with different documentation than called for in the contracts.
     •   At one shred facility, the onsite manager explained that there was an additional contractor
         involved in the transportation of SBU waste from the IRS locations to their facility, and
         that the IRS had contracted the services. We could find no reference to this in the
         contract between the IRS and this facility. The contract did state, “The material shall
         remain in control of the contractor at all times until destroyed.” IRS management told us
         that they were unaware of the additional contractor involvement. Any additional
         contractors involved in the disposal or destruction of SBU waste would require either
         completion of a background investigation or continual IRS escort during the process.
         Another contract we reviewed had changes to the collection and pickup process after it
         was awarded. We were informed that circumstances and/or conditions had changed
         during the course of the contract and that both the contractor and IRS agreed to the

13
   A certificate created to document the destruction of records according to established policies and procedures.
14
   National Association for Information Destruction, Inc. is the international trade association for companies
providing information destruction services. Its mission is to promote the information destruction industry and the
standards and ethics of its member companies.



                                                                                                             Page 9
                        Increased Management Oversight of the Sensitive but
                      Unclassified Waste Disposal Process Is Needed to Prevent
                     Inadvertent Disclosure of Personally Identifiable Information


        changes made. However, no formalized addendum or other written document was
        available detailing the changes agreed to.
As of May 2008, IRS management has established no standard nationwide contract requirements
or administrative responsibilities related to the contracts for disposal of SBU waste material,
specifically paper. These issues have been left to the discretion of individual COTRs and/or
Territory Managers. This inconsistent approach and, in some cases, deviation from prescribed
IRS requirements significantly increases the risk of inadvertent and unauthorized disclosure of
sensitive PII.
IRS management is actively moving forward towards completion of a national contract with
NISH 15 to provide for the disposal and destruction of SBU waste and PII at all 700 plus IRS
locations. According to IRS management, NISH would serve as the central agency and would
utilize other NISH-affiliated, nonprofit agencies to perform the specific services required. While
IRS management was unable to determine what the time period for completion of this transition
would be, they have made steady progress in developing the Statement of Work for the national
contract.
Some of the benefits IRS management believes will come with a national contract are:
1) working with one entity; 2) not having to track down individual contracts and companies; and
3) greater ease in implementing standards. They are working on a Quality Assurance Plan that
mandates an inspection and validation to ensure that the contractors are performing up to the
standard and are in compliance with the contract. While IRS management believes that a
national contract with NISH would provide centralized management of that activity,
comprehensive oversight and accountability still rests solely with the IRS. The review, update,
and control of the various subcontracts should be done at the National Office level. The
proposed national contract with NISH will bring in many new subcontractors, and site visits will
have to be made in order to ensure that taxpayer information is protected. Based on our
discussions with IRS management, the availability of both trained staff and travel funds is a
major concern at the present time. While this national contract would centralize all SBU waste
and PII disposal and destruction under one vendor and would provide the IRS with a central
point of contact, the terms and conditions to be specified under the scope of work for the various
subcontractors must be uniform.

Recommendations
Recommendation 3: We recommend that the Chief, Agency-Wide Shared Services, ensure
that all SBU waste contracts (either in place or to be awarded) include the same requirements for

15
  NISH is a nonprofit agency whose mission is to create job opportunities for people with severe disabilities by
securing Federal contracts through the AbilityOne program, formerly Javits-Wagner-O’Day, for its network of
community-based, nonprofit agencies. NISH was formerly the acronym for National Industries for the Severely
Handicapped.

                                                                                                           Page 10
                    Increased Management Oversight of the Sensitive but
                  Unclassified Waste Disposal Process Is Needed to Prevent
                 Inadvertent Disclosure of Personally Identifiable Information


SBU waste disposal/destruction–specifically those covering secure storage, physical
security-minimum protection standards, restricting access, and disposal–as those contained in
Publication 1075.
Management’s Response: IRS management agreed with this recommendation. They have
included suggested Federal security requirements for SBU waste disposal/destruction in the
NISH Contract for Document Destruction. Delegated buildings with existing custodial contracts
that include document destruction that comply with the Performance Work Statement will be
exempt from the National Contract.
Recommendation 4: We recommend that the Chief, Agency-Wide Shared Services, make
improvements to the oversight and management of SBU waste contracts by ensuring that:
   •   All contracts related to the handling, disposal, and destruction of SBU waste or PII are
       standardized as to critical elements such as site visits, required minimum level of
       background investigations, disclosure safeguards, and certificates of destruction.
   •   A national database or consolidated list of all IRS field offices and the contractors that
       serve them is established to identify all contracts related to the handling, disposal, and
       destruction of SBU waste and PII and the IRS facilities covered by them.
   •   Responsibilities for monitoring vendor adherence to contract requirements are clearly
       defined.
   •   IRM requirements are followed in regards to contractor facility site surveys–in particular
       when shred/burn facilities change location and prior to the awarding of all future
       contracts.
Management’s Response: IRS management agreed with this recommendation.
Requirements for the handling, disposal, and destruction of SBU/PII have been standardized and
incorporated into the Performance Work Statement for shred/burn contracts. The Performance
Work Statement will also standardize requirements for contractor site visits, required minimum
level of background investigations, disclosure safeguards, and certificates of destruction.
Management has established a consolidated list of all IRS field offices and servicing SBU and
PII waste disposal contractors. They have clearly defined responsibilities for monitoring vendor
adherence to contract requirements and have given ownership of these responsibilities to the
national COTR and Territory sub-COTRs. Standard Operating Procedures and a strict
Performance Requirements Summary have been created.




                                                                                            Page 11
                     Increased Management Oversight of the Sensitive but
                   Unclassified Waste Disposal Process Is Needed to Prevent
                  Inadvertent Disclosure of Personally Identifiable Information


Policies Related to Protection and Disposal of Paper Documents
Containing Personally Identifiable Information Need to Be More
Widely Communicated and Adhered to by Employees and Contractors
At every location we visited, we found documents containing PII or other SBU information in
regular waste containers and/or dumpsters. For example, in one location from an open dumpster
located outside the building, we obtained a document containing a complete IRS purchase card
number as well as other PII. In another IRS facility, receptacles specifically provided for
recyclable materials were the only trash receptacles available at employee workstations. These
containers, which were bright blue and clearly marked “RECYCLE,” were being used by
employees throughout the day for SBU waste. We observed contractor employees emptying
these containers into regular waste carts while employees were not at their desks. In one
location, we found cardboard boxes and trash pails labeled “CLASSIFIED MATERIAL-DO
NOT DISCARD.” This local practice is a significant control weakness when cleaning staff are
expected to differentiate between standard SBU waste or PII containers and all other labeled
waste receptacles. In addition, these labels can be easily misunderstood by contractor
employees.
At two different IRS offices we visited, we were told that cleaning staff working in IRS areas
had been observed without either proper identification or an escort. We also observed cleaning
staff collecting both SBU waste and regular trash at the same time, in contradiction to what we
had been told by IRS onsite management was standard procedure.
While a DVD entitled Safeguarding Personally Identifiable Information has been created and
distributed throughout the IRS, this DVD focuses almost exclusively on electronic media and
security of the employee’s actual desk/workstation/laptop. It does not address the proper
disposal of SBU waste and documents containing PII. At the time of our review, we were unable
to identify any IRM guidance which contained updated concepts and terminology such as
“personally identifiable information” and “sensitive but unclassified.” The IRM under Physical
Security Standards covering Information Protection had last been revised in July 2003.
As part of the requirements of the IRM Managers Security Handbook and Records Disposition
Handbook, managers in the functional areas are required to hold annual security briefings and
provide a forum for employee discussion. One IRS analyst and a management assistant we
interviewed had never heard of PII and both were unaware of the risks associated with the
improper disposal of documents containing PII.
If security policies are not adequately communicated and adhered to, sensitive taxpayer and
employee data are at an increased risk of disclosure or other improper usage. This may be
exacerbated by the fact that at many IRS locations, nonsensitive paper waste is sold to recycling
plants in bulk. Sensitive material disposed of improperly could be included in this recycled
waste.


                                                                                          Page 12
                    Increased Management Oversight of the Sensitive but
                  Unclassified Waste Disposal Process Is Needed to Prevent
                 Inadvertent Disclosure of Personally Identifiable Information


Recommendation
Recommendation 5: We recommend the Chief, Agency-Wide Shared Services, provide
complete and accurate guidance and education regarding the safeguarding and proper disposal of
sensitive data by initiating the following:
   •   An update to the IRM to incorporate Federal Information Security Management Act of
       2002 standards and terminology, e.g., PII. Cross references to current legislative
       documents should be made when necessary.
   •   A requirement that annual security briefings for operational areas include group
       discussions of PII and other current security topics relevant to the area.
   •   Additional employee outreach regarding the proper disposal of paper documents as well
       as the identification for each operational area of what is considered SBU waste and PII.
   •   A memorandum to all employees mandating the use of only official authorized containers
       that are identified for disposal of SBU waste and PII. Employees should be prohibited
       from using containers designated RECYCLE or any other label. IRS management should
       ensure that the official authorized containers are available in an adequate number and size
       to accommodate employee needs.
   •   A program to inform contractors and their employees of their responsibilities to follow
       current IRM guidelines. Among the procedures that should be reviewed are badging,
       escorts, and disclosure safeguards. This requirement can become part of the Statement of
       Work between the IRS and the contractor.
Management’s Response: IRS management agreed with this recommendation. The IRM
on Information Protection was revised in September 2008 and includes SBU and PII standards
and terminology. Agency-Wide Shared Services will partner with the Communications and
Liaison function and the Privacy Office to develop a communications plan on the remaining
points of this recommendation to ensure continued awareness around policies and procedures for
the destruction of PII and SBU information for both employees and contractors.




                                                                                          Page 13
                       Increased Management Oversight of the Sensitive but
                     Unclassified Waste Disposal Process Is Needed to Prevent
                    Inadvertent Disclosure of Personally Identifiable Information


                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine whether the IRS has established effective
controls to ensure that security measures related to the disposal of tax and other SBU information
are adequate to prevent disclosure of PII. 1 To accomplish our objective, we:
I.      Identified IRS office locations nationwide and determined the risk of disclosure based on
        types of buildings, leases, tenancy, number of IRS employees occupying office space,
        and SBU waste/PII disposal contract requirements.
        A. Obtained documentation of current IRS office inventory.
        B. Interviewed key Real Estate and Facilities Management function personnel to
           determine how SBU waste contracts are awarded and monitored.
        C. Obtained copies of current contracts from IRS management to ensure that they
           contain all of the required security and safeguard provisions. We identified current
           IRS procedures and guidelines for achieving compliance with these provisions. We
           evaluated the IRS’ compliance with contract procedures.
        D. Created a questionnaire to be completed by the 14 Territory Managers 2 relative to the
           scope of work regarding collection and transport of SBU waste/PII, as well as
           shred/burn or other SBU waste/PII destruction contracts.
II.     Conducted site visits at 15 IRS locations in 7 cities based on information received from
        the Real Estate and Facilities Management function.
        A. Determined whether the IRS has adequately informed/educated their employees
           regarding the proper disposal of SBU waste/PII.
             1. Requested and reviewed pertinent information/educational documents provided to
                IRS employees on the subject of SBU waste/PII and policies and procedures for
                its disposal.




1
 Tax returns and return information are to be considered SBU information. PII is a specific type of SBU.
2
 Territory Managers are responsible for Real Estate and Facilities Management and Building Management
programs, servicing customers in geographically dispersed posts of duty in their assigned territories.
                                                                                                           Page 14
                         Increased Management Oversight of the Sensitive but
                       Unclassified Waste Disposal Process Is Needed to Prevent
                      Inadvertent Disclosure of Personally Identifiable Information


             2. Confirmed or clarified current procedures through discussions with appropriate
                management and analysts at the selected sites (COTRs 3 where applicable).
         B. Identified and obtained documentation of guidance provided to the Area Offices (e.g.,
            the IRM, Internal Revenue Code § 6103, National Headquarters Office
            memorandums). This included identifying national policies and practices (e.g., The
            Privacy Act of 1974 4 and The E-Government Act of 2002 5 ).
         C. Interviewed and observed a judgmental sample of employees who were in the office
            the day of our visits in order to obtain feedback on whether appropriate separation of
            printed materials was executed.
         D. Observed and inspected shred/burn bins for proper labeling and separation.
         E. Inspected employee SBU waste/PII/recycle/wet waste or other containers for
            appropriate separation of materials.
         F. Inspected shredders where provided.
         G. Inspected SBU waste holding areas.
III.     Determined whether waste disposal contractors are providing adequate protection of
         sensitive taxpayer information and verified conformance with Government-wide policies.
         A. Observed pickup of SBU waste from IRS locations.
         B. Observed transfer of waste from IRS locations to waste disposal facilities.
         C. Conducted unannounced inspections at four off-site waste disposal facilities and
            reviewed required logs or other documentation.
         D. Observed and evaluated storage and destruction of SBU waste material at waste
            disposal facilities.
         E. Determined whether the IRS has provided adequate oversight to ensure that
            unannounced inspections of waste disposal facilities were completed and that waste is
            being destroyed properly and according to established time periods.
IV.      Using the results of information obtained in Steps I. through III., determined whether the
         IRS is providing adequate oversight of SBU waste/PII disposal to prevent disclosure of
         sensitive taxpayer information.


3
  The COTR is a person designated by the Contracting Officer to perform certain administrative tasks related to a
specific contract. The primary role of the COTR is to monitor the contractor’s performance, ensure that the
contractor delivers what is called for in the contract, and serve as the technical liaison between the contractor and the
Contracting Officer.
4
  5 U.S.C. § 552a (2000).
5
  Pub. L. No. 107-347 Title III, Section 301 (2002).
                                                                                                               Page 15
                    Increased Management Oversight of the Sensitive but
                  Unclassified Waste Disposal Process Is Needed to Prevent
                 Inadvertent Disclosure of Personally Identifiable Information


                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Kyle R. Andersen, Director
Bernard F. Kelly, Audit Manager
Nancy Van Houten, Lead Auditor
Margaret F. Filippelli, Senior Auditor




                                                                                      Page 16
                   Increased Management Oversight of the Sensitive but
                 Unclassified Waste Disposal Process Is Needed to Prevent
                Inadvertent Disclosure of Personally Identifiable Information


                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Agency-Wide Shared Services OS:A




                                                                         Page 17
       Increased Management Oversight of the Sensitive but
     Unclassified Waste Disposal Process Is Needed to Prevent
    Inadvertent Disclosure of Personally Identifiable Information


                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 18
   Increased Management Oversight of the Sensitive but
 Unclassified Waste Disposal Process Is Needed to Prevent
Inadvertent Disclosure of Personally Identifiable Information




                                                         Page 19
   Increased Management Oversight of the Sensitive but
 Unclassified Waste Disposal Process Is Needed to Prevent
Inadvertent Disclosure of Personally Identifiable Information




                                                         Page 20
   Increased Management Oversight of the Sensitive but
 Unclassified Waste Disposal Process Is Needed to Prevent
Inadvertent Disclosure of Personally Identifiable Information




                                                         Page 21
   Increased Management Oversight of the Sensitive but
 Unclassified Waste Disposal Process Is Needed to Prevent
Inadvertent Disclosure of Personally Identifiable Information




                                                         Page 22
   Increased Management Oversight of the Sensitive but
 Unclassified Waste Disposal Process Is Needed to Prevent
Inadvertent Disclosure of Personally Identifiable Information




                                                         Page 23
